<html>
<title> - HEARING ON THE NOMINATIONS OF AURELIA SKIPWITH TO BE DIRECTOR OF THE U.S. FISH AND WILDLIFE SERVICE AND KATHERINE LEMOS TO BE MEMBER AND CHAIRPERSON OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD</title>
<body><pre>[Senate Hearing 116-95]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 116-95

 HEARING ON THE NOMINATIONS OF AURELIA SKIPWITH TO BE DIRECTOR OF THE 
  U.S. FISH AND WILDLIFE SERVICE AND KATHERINE LEMOS TO BE MEMBER AND 
   CHAIRPERSON OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-515 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 11, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Clay, Hon. William Lacy, U.S. Representative from the State of 
  Missouri.......................................................     5
Skipwith, Aurelia, nominee to be Director, U.S. Fish and Wildlife 
  Service........................................................     7
    Prepared statement...........................................    10
    Response to an additional question from Senator Barrasso.....    14
    Responses to additional questions from:
        Senator Carper...........................................    15
        Senator Booker...........................................    29
        Senator Cardin...........................................    31
        Senator Cramer...........................................    32
        Senator Gillibrand.......................................    34
        Senator Markey...........................................    36
        Senator Merkley..........................................    40
        Senator Sullivan.........................................    42
        Senator Whitehouse.......................................    43
        Senator Wicker...........................................    47
Lemos, Katherine, nominee to be Chairperson and Member, U.S. 
  Chemical Safety and Hazard Investigation Board.................    49
    Prepared statement...........................................    51
    Responses to additional questions from:
        Senator Barrasso.........................................    54
        Senator Carper...........................................    56
    Response to an additional question from Senator Merkley......    60
    Responses to additional questions from Senator Whitehouse....    60

                          ADDITIONAL MATERIAL

Trump conservation pick triggers question of `favoritism or 
  connections,' by Emily Holden, The Guardian, December 20, 2018.   140


 
 HEARING ON THE NOMINATIONS OF AURELIA SKIPWITH TO BE DIRECTOR OF THE 
  U.S. FISH AND WILDLIFE SERVICE AND KATHERINE LEMOS TO BE MEMBER AND 
   CHAIRPERSON OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

                              ----------                              


                     WEDNESDAY, SEPTEMBER 11, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:13 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Cramer, Braun, Rounds, 
Sullivan, Boozman, Ernst, Cardin, Whitehouse, Gillibrand, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today, we are going to consider the nominations of Aurelia 
Skipwith to be the Director of the U.S. Fish and Wildlife 
Service and Katherine Lemos to be a Member and the Chairperson 
of the Chemical Safety and Hazard Investigation Board.
    Ms. Skipwith has served as the Department of Interior's 
Deputy Assistant Secretary for Fish, Wildlife, and Parks for 
the past 2 years. In this role, she has helped to oversee both 
the U.S. Fish and Wildlife Service and the National Park 
Service.
    In her new role as the Director of the U.S. Fish and 
Wildlife Service, Ms. Skipwith will work closely with the 
Assistant Secretary for Fish, Wildlife, and Parks, Rob Wallace, 
with this Committee and who the full Senate recently confirmed 
by voice vote. Ms. Skipwith will be in charge of managing fish 
and wildlife for the American public. That includes combating 
invasive species, recovering endangered species, protecting 
migratory birds, restoring fisheries, and conserving and 
enhancing wildlife habitat.
    She earned a degree in biology from Howard University, 
molecular genetics from Purdue University, and a law degree 
from the University of Kentucky.
    More than 80 groups and individuals have written in support 
of Ms. Skipwith's nomination. Scott Vance, the CEO and 
executive director of the Union Sportsmen's Alliance, whose 
members include

[[Page 2]]

the Nation's most prominent unions, has written, ``We believe 
it is vitally important that the next director of the Fish and 
Wildlife Service not only possess strong leadership skills and 
the ability to form public and private partnerships, but also 
the education and critical decisionmaking skills required to 
enact policies based on scientific principles free from 
political and bureaucratic interference. Ms. Skipwith meets,'' 
as he says, ``and surpasses these qualifications, and we urge 
you to approve her nomination.''
    Dan Ashe, who was the former Director of the U.S. Fish and 
Wildlife Service under President Obama and is now president and 
CEO of the Association of Zoos and Aquariums, has noted, ``In a 
field where diversity is sorely needed, it is encouraging to 
see a woman and person of color nominated to this important and 
prominent leadership position.''
    Confirming Ms. Skipwith is important to the work of this 
Committee. We have jurisdiction over fish and wildlife policy, 
including the U.S. Fish and Wildlife Service.
    Earlier this year, Congress enacted the WILD Act, Wildlife 
Innovation and Longevity Driver Act, to combat invasive 
species, prevent wildlife poaching and trafficking, to promote 
wildlife conservation, and to protect endangered species. I 
look forward to working with Ms. Skipwith to implement the WILD 
Act.
    The Committee also has oversight over the Endangered 
Species Act. I have worked with the Western Governors' 
Association, with State fish and wildlife agencies, with 
conservation organizations, with ranchers, with farmers, and 
energy producers, to update the Act so that it works better for 
species and for people. I look forward to working with Ms. 
Skipwith on modernizing this important law.
    President Trump has also nominated Katherine Lemos to serve 
as Member and Chairperson of the Chemical Safety and Hazard 
Investigation Board. Dr. Lemos has substantial experience in 
the fields of incident investigation, accident reconstruction, 
safety engineering, and human factors.
    She has demonstrated strong leadership in these areas at 
the National Transportation Safety Board, at the Federal 
Aviation Administration, at Northrop Grumman, and in academia. 
Her knowledge and background make her a strong candidate to 
lead the Chemical Safety Board in its mission to investigate 
industrial chemical accidents.
    The former Executive Director and current Deputy Executive 
Director of the Federal Aviation Administration's Accident 
Investigation and Prevention Office has written in support of 
Dr. Lemos' nomination: ``As a consummate safety professional 
with the ability to adapt and apply her knowledge across 
domains, her tenacity, and her leadership skills in engaging 
and drawing every resource, Katherine is the ideal candidate 
for this role.''
    Getting her confirmed is a priority. In December of this 
year, the Chemical Safety Board will be down to one member. I 
have called on the Administration to fill both current and 
future vacancies at the agencies, and I do so again. We cannot 
allow the agency to lose its quorum.
    I look forward to hearing both of our nominees' testimony.
    I will now turn to Ranking Member Carper for his statement.

[[Page 3]]

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Welcome, one and all.
    I am especially happy to see Congressman Clay with us this 
day. Thank you so much for coming. We know you are busy. Once 
you have finished your introduction, if you would like to spend 
the next 3 hours with us, that would be great. If you decide 
you want to go back to work, we will understand that, too.
    [Laughter.]
    Senator Carper. I had a chance to meet the family members 
for both of our nominees, and it is a real pleasure to meet 
spouses and fiances and mothers and aunts and even some sisters 
in the house. We are glad you all could make it.
    Was your father Bill Clay? OK, I served with your dad, and 
it was a real honor, and I know he is very proud of you, very 
proud of you.
    Dr. Lemos, you pronounce your name Lemos, not Lemos, right? 
Lemos?
    Ms. Lemos. Yes.
    Senator Carper. OK, like in lemon.
    Ms. Lemos. Yes, sir.
    Senator Carper. Dr. Lemos has been nominated to serve on 
the Chemical Safety and Hazard Investigation Board, an 
independent Federal agency that's charged with investigating 
industrial chemical accidents. The board has investigated 
everything from the BP oil spill to fatal refinery accidents to 
chemical explosions caused by flooding during, I think it was 
Hurricane Harvey. Regrettably, though, President Trump has not 
treated this important agency with the respect that its mission 
deserves. In fact, the President's budget proposals have 
repeatedly called for the board's elimination.
    Moreover, Dr. Lemos is the first nominee to the board we 
have seen during this Administration, if I'm not mistaken. 
While I am encouraged that Dr. Lemos appears to be a well 
qualified nominee, it is my hope that she can assure the 
Committee of her strong commitment to both the board's mission 
and to its budget.
    I also hope to learn more about the Trump administration's 
support for additional board nominations or renominations since 
the terms of its current board members will all expire in the 
next year or so.
    I want to say just as a side note, we face a situation 
where this President, this Administration has not been a real 
supporter for another agency called the Economic Development 
Administration, that we think--most of us, Democrats and 
Republicans--think, serves a vital role. But they nominated 
somebody to head the agency who actually is a former 
Congressman; he is a doctor, but he is a former Congressman. 
And he had as a Congressman voted repeatedly to de-fund the 
Economic Development Administration. And then this President 
nominated him to head that agency. And we have a situation here 
where this Administration has also called for basically de-
funding the panel, the commission that you would be nominated 
to lead. And Dr. Fleming's changed his mind, since he has been 
confirmed to head up EDA. He thinks it is a good organization, 
and he is trying to make it better.

[[Page 4]]

    I think one of the things for you is that we need to hear 
from you your strong commitment to actually not just keeping 
this entity alive but also to actually make it stronger and 
better. So we are going to be looking to you for that.
    I want to just set that aside and say to, with regard to 
Ms. Aurelia Skipwith has been nominated, as we know, to lead 
the U.S. Fish and Wildlife Service, our Nation's oldest Federal 
conservation agency. The Service is responsible for enforcing 
wildlife protection laws, restoring habitat, and assisting 
foreign governments with international conservation efforts.
    In Delaware, the First State, we take great pride in our 
two national wildlife refuges, as we spoke about yesterday, 
which are home to threatened and endangered species, including 
the piping plovers, the red knot, and others. These two 
migratory birds attract literally thousands--maybe tens of 
thousands--of visitors to our State every year. They come from 
all over the world. The national wildlife refuges are not just 
a source of pride for Delawareans, they are a source of 
economic prosperity and I think pride for our Nation.
    Unfortunately, over the last couple of years, the U.S. Fish 
and Wildlife Service has taken actions that jeopardize our 
Nation's wildlife, despite widespread opposition. The 
Administration recently finalized regulations that will 
dramatically alter implementation of the Endangered Species 
Act, one of our Nation's most popular and actually most revered 
environmental laws. These regulations could undermine the 
Service that is supposed to both underpin and drive species 
protection decisions.
    In 2017, this Administration also adopted an unprecedented 
legal opinion relative to the Migratory Bird Treaty, a stance 
that every former top Department of Interior official since 
President Nixon's administration, both Republican and Democrat 
alike, has vehemently opposed. Now, the Department in which Ms. 
Skipwith currently serves is pursuing regulations to codify 
this controversial bird Migratory Treaty Act opinion.
    Meanwhile, the Trump administration has also been rushing 
down what many Americans regard as a misguided path to develop 
our Nation's public lands, particularly in the Arctic National 
Wildlife Refuge, and in core sage grouse habitat, at the 
expense of a thorough public process, transparency, and 
science.
    Ms. Skipwith, as our Committee considers your nomination, I 
hope you will clearly convey a willingness to revisit some of 
these troubling policy decisions.
    Let me end with this. Thank you so much for visiting with 
me yesterday, both of you; thank you for visiting with me, Dr. 
Lemos, a couple of weeks ago. Almost 2 weeks ago, on August 
29th, I sent Ms. Skipwith a letter, we talked about this 
yesterday, asking her to provide answers about her interests 
with former employers and the extent to which she's tried to 
avoid potential conflicts of interest.
    And again, we met yesterday; I appreciate that. I told her, 
I told you how disappointed I was that less than 24 hours 
before your confirmation hearing, I still had not received a 
response to the letter that I had sent almost 2 weeks ago. We 
had that conversation yesterday. Last night, just hours before 
the hearing, we finally re

[[Page 5]]

ceived a response. I am told the response is incomplete. That 
is just not acceptable.
    I sincerely hope that it is not an indication of how you 
would respond to future legitimate inquiries from members of 
this Congress, be they Democrat or Republican or Independent, 
should you be confirmed.
    Part of our responsibility on this Committee, on the 
Environment and Public Works Committee, is to conduct oversight 
over the executive branch of our Government, and that includes 
the U.S. Fish and Wildlife Service. We need your cooperation in 
order for us to meet our responsibilities under the 
Constitution. Should you be confirmed, I hope we will have it.
    Thank you again for joining us today. We look forward to 
hearing from both of you for your testimonies, and right now, 
we look forward to hearing from our friend Lacy Clay.
    Welcome.
    Senator Barrasso. Thank you very much, Senator Carper.
    You are absolutely right, we are grateful to be joined 
today by Congressman William Lacy Clay, who will introduce, in 
a second, Ms. Skipwith. Congressman Clay represents Missouri's 
First Congressional District, based in St. Louis. You will 
note, if you Google L-A-C-Y, it immediately goes to Lacy Clay. 
It doesn't go to Carper, it doesn't go to Barrasso, like I 
said, it goes right to Lacy Clay.
    [Laughter.]
    Senator Barrasso. So that is quite a distinction.
    We want to thank you for taking the time to be here today, 
to join us. Please proceed.

             STATEMENT OF HON. WILLIAM LACY CLAY, 
         U.S. REPRESENTATIVE FROM THE STATE OF MISSOURI

    Representative Clay. Thank you, Mr. Chairman and Ranking 
Member Carper. Thank you for allowing me to come before you 
today.
    And as an aside, Senator Carper, yes, I did succeed my 
father, Bill Clay, 18 years ago. He and my mom live happily in 
Senator Cardin's great State of Maryland.
    Senator Carper. Please give him my best.
    Representative Clay. I will.
    Senator Carper. Tell him I said the apple didn't fall too 
far from the tree.
    [Laughter.]
    Representative Clay. This morning, I have the honor to 
present for your consideration a remarkable American woman, who 
has been nominated to serve as the new Director of the U.S. 
Fish and Wildlife Service, my highly talented constituent, Ms. 
Aurelia Skipwith.
    Welcome, Aurelia, to you and your family who are here with 
us today.
    To state the facts plainly, Ms. Skipwith is one of the most 
talented, hardest working, and driven persons that I have ever 
known.
    Allow me to share with you a bit of information about her. 
Ms. Skipwith grew up in Indianapolis, Indiana, and first 
attended Morehead State University in Kentucky. While there, 
she was

[[Page 6]]

awarded a full scholarship to attend Howard University, one of 
our Nation's top historically black universities, where she 
graduated with a bachelor's degree in science. As you are 
aware, that science degree satisfies the requirement for 
appointment to this vital position in the Administration.
    Ms. Skipwith went on to attend Purdue University, where she 
earned a master's degree in animal sciences, with an emphasis 
on molecular genetics. In 2005, she became my constituent when 
she and her family moved to St. Louis, where her family still 
resides.
    I first met Ms. Skipwith in 2008, while she was employed as 
a scientist at Monsanto, which is now Bayer.
    While employed at Monsanto, Ms. Skipwith excelled. She was 
awarded the Monsanto Sustainable Pledge award for her 
groundbreaking crop research. Ms. Skipwith was also recognized 
by the Missouri State legislature as a global leader in 
advancing sustainable agriculture.
    Ms. Skipwith also won the Monsanto Global RGGI award for 
her extensive work to help feed the world by developing a new 
soybean that contained less saturated fatty acids.
    After 8 years in St. Louis, she moved to the University of 
Kentucky's College of Law, and became the President of the 
International Law Society and was the Vice President of the ONE 
Campaign, which focuses on fighting poverty and preventable 
diseases in Africa.
    She and I reconnected again in DC. Over the last several 
years, I have worked closely with her on important issues, and 
I can tell you that she cares. She listens, and she works hard 
for the American people.
    Ms. Skipwith has some tremendous value at the Department of 
Interior. Most recently, she was designated by the Secretary of 
the Interior to represent the Administration at a truly 
historic moment in St. Louis, the induction of the historic 
Shelley House as the first unit in Missouri to be included on 
the new African American Civil Rights Network. The African 
American Civil Rights Network is an important new National Park 
Service asset established by legislation that I authored in the 
U.S. House.
    For those of you who may not know the history, the Shelley 
House was at the center of the landmark 1948 U.S. Supreme Court 
decision, Shelley v. Kraemer, which outlawed restrictive 
housing covenants across this country. This case stood for the 
principle that equal protection under the law applied to 
housing and included the rights to acquire, enjoy, own, and 
dispose of property. The Shelley case was a heartening signal 
for African Americans in St. Louis and across the country that 
positive social change could be achieved through law and the 
courts.
    Ms. Skipwith worked closely with my staff and other members 
of the Congressional Black Caucus, preservationists, and civil 
rights advocates, to make the African American Civil Rights 
Network a reality. She took a personal interest and advocated 
for the network, knowing its impact on future generations and 
the importance of all aspects of the American experience being 
told.
    I think that it is fitting that Ms. Skipwith was chosen to 
represent the Administration on that historic occasion because 
her nomination that you are considering today offers the U.S. 
Senate

[[Page 7]]

another historic opportunity for progress and equality. If 
confirmed, Aurelia Skipwith would become the first African 
American to head the U.S. Fish and Wildlife Service. This is a 
historical nomination.
    Ms. Skipwith is what we call in our community a true 
success story. We encourage our little black girls to take the 
road less traveled and embrace science, technology, 
engineering, and math, a field that is male dominated.
    Ms. Skipwith embraced the challenge and found tremendous 
success. I am proud to be with her and her family today and 
providing today's introduction, as she is the embodiment of 
what we instruct our children to do and be: educated, hard 
working, excelling in their designated profession, and 
contributing good to the world.
    I, along with the citizens of Missouri's First 
Congressional District, am proud to present one of our own. I 
respectfully request your favorable consideration and 
confirmation for this exceptional nominee, improving public 
service.
    I thank the Committee for your gracious time this morning.
    Senator Barrasso. Well, thank you so very much, Congressman 
Clay, for this wonderful introduction of an incredible nominee. 
We know you have pressing responsibilities and duties in the 
House. You are welcome to stay as long as you like. We are 
grateful for the time you are here.
    Representative Clay. I am sure Speaker Pelosi is looking 
for me.
    [Laughter.]
    Representative Clay. Thank you so much.
    Senator Barrasso. Thank you.
    Now I would like to welcome our nominees to come forward 
and take your seats.
    We have joining us Aurelia Skipwith, who is the nominee to 
be Director of the U.S. Fish and Wildlife Service, and 
Katherine Lemos, who is the nominee to be the Member and 
Chairperson of the Chemical Safety and Hazard Investigation 
Board.
    I want to remind both of you that your full written 
testimony will be made a part of the record. We look forward to 
hearing that testimony. We like to start, if we may, with an 
introduction of the family with each of the nominees.
    With that, we will go first to Ms. Skipwith and then to her 
testimony, and then to Dr. Lemos to introduce her family and 
her testimony.
    Ms. Skipwith, please proceed.

  STATEMENT OF AURELIA SKIPWITH, NOMINEE TO BE DIRECTOR, U.S. 
                   FISH AND WILDLIFE SERVICE

    Ms. Skipwith. Thank you very much, Chairman. It is an honor 
to be here today, and I am so excited that my family is here, 
so I will quickly do an introduction.
    I have my Aunt Sally, who came from Columbus, Mississippi. 
Next to her is my mom, Lily Skipwith.
    Senator Carper. Could I ask, just raise your hand as you 
are introduced, please.
    Ms. Skipwith. My sister, Angel Waray, from St. Louis, 
Missouri. My Aunt Kathy from Sugarland, Texas. My Aunt Vonda 
Kay from Sugarland. Ms. Altamese Thompson from Indianapolis, 
and then I

[[Page 8]]

have my Aunt Brenda and Uncle Eugene from Columbus, 
Mississippi. And then in the back, I have my fiance, Leo 
Giacometto.
    Senator Carper. Would your mother raise her hand again, 
your mom?
    Senator Barrasso. Mom's in the right, there.
    Senator Carper. Thank you. I said earlier when we were 
talking to the nominee's family, I said I will be watching your 
mother to see if her lips move when her daughter speaks.
    [Laughter.]
    Senator Barrasso. Please proceed with your testimony.
    Ms. Skipwith. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, it is an honor to be here today as 
President Trump's nominee to be Director of the U.S. Fish and 
Wildlife Service. I am deeply appreciative of Secretary 
Bernhardt's confidence in me. Today, I am requesting your 
support for my nomination.
    I want to acknowledge my mother. She has always been my 
cheerleader. My fiance, my sister, my aunts and uncle, and the 
dear friends that have come here today to show their support. I 
want to thank Congressman Lacy Clay, who was my Congressman for 
many years, for that introduction. It means a lot to me, 
because I still call Missouri home, and I still have properties 
there today.
    My mother picked cotton on her way to college to become one 
of the first black women to graduate from The W in Columbus, 
Mississippi. Today, she continues to work as a public school 
teacher in Indianapolis. And my father, who right out of high 
school, during the Vietnam war, joined the Navy and retired as 
an Army Master Sergeant with 34 years of service.
    My respect for the outdoors and wildlife began at an early 
age. My summers were spent in Mississippi where I helped my 
grandpa on the hog farm, in his garden, and with the hunting 
dogs. I began my college in Kentucky at Morehead State, where I 
studied animal science. But it was my time at Howard University 
that exposed me to biological research, and that spurred my 
intrigue to discover and test new technologies, to challenge 
the status quo, and to bring forth new, innovative technologies 
to better our world. That desire continued as I earned my 
master's degree in Molecular Biology and Genetics from Purdue 
University.
    In the private sector, I led teams to develop new crops to 
improve productivity for farmers, environmentalists, and 
consumers around the world. I love biology and science, and I 
learned a lot from being in the lab and being in the field. 
However, I grew to recognize that one may have the best 
intentions and the best available science, but without fair and 
balanced regulations and laws, one's future can be stifled. I 
saw those stifling effects first hand when managing a project 
to develop new corn to address the drought in Africa. I knew 
what I needed to do. I went to the University of Kentucky to 
pursue my law degree.
    After graduating, I was the legal advisor for an all 
natural animal nutrition company, responsible for the research, 
development, and the approval of their first all natural 
pesticide. I understand the necessary balance of natural 
resources among various user groups and that conservation is at 
the core of it all. That is what led me here today.

[[Page 9]]

    As Deputy Assistant Secretary for Fish, Wildlife, and 
Parks, I have had the pleasure to work with the Service's 
finest professionals. That, with my past, has prepared me well 
to lead the U.S. Fish and Wildlife Service. I view the 567 
refuges within the Service as our Nation's crown jewels. They 
are stopovers in flyway zones, home to endangered species, and 
they are places where people can hunt, fish, and recreate.
    The Service and I are committed to align the Endangered 
Species Act with the letter of the law, providing transparency 
and consistency in actions from the public and from our Federal 
partners. More than 60 percent of the lands in the United 
States are privately owned, both inland and coastal. It is a 
priority of mine to work with the private landowners and 
States, so that lands stay productive for all the species and 
for the people that own them. By bridging the gap with workable 
solutions, as well as leveraging the expertise of others, we 
can accomplish so much more.
    This is truly an exciting time to lead the path forward. I 
will continue to have my open door policy, to hear all sides in 
order to make an informed decision. That decision will be based 
on the best available science, within the realm of the law, all 
intertwined with common sense.
    My mom taught me that it didn't matter where you started 
from, but it mattered where you were headed. She made sure that 
my education was a big part of that, and instilled in me to go 
further after what I believed was right. And my father taught 
me about service to our country and implanted structure and 
accountability. With these teachings at the forefront of my 
mind, I sit here today, a product of the American dream.
    I truly feel honored and humbled by this experience. And 
the same time, it is motivating for me to seek the 
responsibility and tradition of excellence that this role, as 
Director of the U.S. Fish and Wildlife, demands. I am committed 
to give my all.
    Thank you.
    [The prepared statement of Ms. Skipwith follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



   Senator Barrasso. Well, thank you so very much for that 
testimony. I will tell you, your mom was taking copious notes, 
and then she stopped and looked up with great pride and did 
that for a while, then she wiped a tear from her eye. Thank you 
for your wonderful testimony.
    Ms. Skipwith. Thank you.
    Senator Barrasso. Dr. Lemos, it is now your turn. Would you 
like to introduce your family and then proceed with your 
testimony?

  STATEMENT OF KATHERINE LEMOS, NOMINEE TO BE CHAIRPERSON AND 
  MEMBER, U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Ms. Lemos. This is Carlos Lemos, my husband, who came all 
the way from California with myself. My father, John Curtis and 
my mother, Laura Curtis. They came from Florida. And I am 
thankful to say, many good friends who support me behind, who 
have been supportive through all the many endeavors in my life.
    Senator Barrasso. Welcome to all of you, and please 
proceed.
    Ms. Lemos. Thank you, Chairman Barrasso, Senator Carper, 
and distinguished members of this Committee. It is an honor to 
appear before you today as the President's nominee to be 
Chairman and Member of the Chemical Safety and Hazard 
Investigation Board. I am grateful to President Trump for the 
confidence he has placed in me to lead the CSB through a time 
of transition and change.
    Mr. Chairman, the chemical industry is vital to our economy 
and to our national well being. Maintaining integrity in our 
chemical production, process, handling, and storage is 
therefore essential to the health of our Nation.
    The CSB's mandate is to investigate accidental chemical 
releases at fixed facilities that result in a fatality, a 
serious injury, or substantial property damage. Through the 
course of investigations and conducting preventive research, 
the CSB makes recommendations for improvement to a range of 
stakeholders to prevent the likelihood of any future incident.
    I am here today before you for three reasons. I am a safety 
professional deeply committed to the well being of people and 
of our environment. I believe the CSB has a critical role to 
play in these safety outcomes, and because my experience and 
objectives are in strong alignment with those required to lead 
the CSB.
    Prioritizing safety was a part of my childhood, and leading 
this commitment was my father, behind me, a military pilot for 
the Air Force and Air National Guard, and then a commercial 
airline pilot for 35 years. When I started flight lessons at 
the age of 14, he required--he mandated--that I subscribe to 
and read and discuss with him the NTSB Monthly Reporter, where 
they provided incidents and accidents, lessons learned, and 
what went wrong.
    Senator Barrasso. It was at the age of 14 he made you do 
this?
    Ms. Lemos. That is when I started flight lessons.
    Senator Carper. Did most of your classmates in school also 
read that publication?
    [Laughter.]
    Ms. Lemos. In my career, I have been privileged to work as 
a safety leader across stakeholder domains and communities, 
that

[[Page 50]]

provides me with an enterprise level perspective of safety. As 
an academic, I studied new technology and decisionmaking in 
high risk and in complex environments. I taught on the topics 
of accident investigation, human factors engineering, and 
safety management systems.
    As a career Government employee for the NTSB, I first 
served as an accident investigator on the front lines of 
aviation safety. I also served as a Special Assistant to the 
Vice Chairman of the Board, supporting review and critical 
decisions on investigations and recommendations across 
transportation domains. So on our launch to a pipeline 
explosion in Mississippi, that was instrumental to my 
appreciating and understanding the similarities across domains 
in terms of accident investigation, human factors, safety and 
risk management, and the long lasting impact of catastrophic 
events. They go across domains.
    As a career Government employee for the FAA, I served as 
the regulator in analyzing, developing, and implementing 
policy, as well as monitoring the outcomes. That provided me a 
unique experience in visualizing and quantifying the entire 
life cycle of events, from research to design, prototype 
testing, engineering, manufacturing, and on to implementation 
and sustainment.
    Now in industry, I am an executive charged with balancing 
competing pressures for multiple programs, developing and 
delivering the quality products and systems that perform as 
promised, on schedule, within budget, but above all, safely. 
Taken together, my combined experiences across the safety 
landscape allows me to be effective at promoting and ensuring 
the balance needed and brought by each stakeholder.
    Mr. Chairman, if confirmed, I look forward to working with 
you to enable and empower the CSB to fulfill its mission to 
prevent chemical accidents and maintain the trust and 
confidence in the public that we serve. If confirmed, I commit 
to leading the agency by example, holding myself accountable, 
as well as each employee, to you and the American public, in 
delivering objective, thorough, actionable, timely 
investigative reports to protect workers and our communities.
    If confirmed, I pledge to work in a collaborative manner 
with board members, staff, stakeholders, and this Committee to 
enhance the safety culture of the entire chemical industry.
    Thank you for your time and consideration, and I look 
forward to answering your questions today.
    [The prepared statement of Ms. Lemos follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


[[Page 62]]

    Senator Barrasso. Thank you very much for your testimony as 
well. Your father looked on with great pride, and was shaking 
his head up and down with a big smile the whole time.
    Throughout this hearing, and with questions for the record, 
the Committee members are now going to have an opportunity to 
learn more about the commitment of both of you to public 
service, and to the great Nation that we have. So I am going to 
ask that throughout this hearing, you please try to respond to 
the questions today, and then some members who may not be able 
to be here or stay through the whole hearing may ask questions 
in writing.
    We do have a series of votes that are going to start in 
about 20 minutes, so there may be members coming and going, 
just so you will notice, if you see people leaving, that they 
are going to vote and then come back if necessary.
    So I have to ask the following questions that we ask of all 
nominees on behalf of the Committee. Do you agree, if 
confirmed, to appear before this Committee or designated 
members of the Committee and other appropriate committees of 
the Congress, and provide information, subject to appropriate 
and necessary security protection, with respect to your 
responsibilities?
    Ms. Skipwith. Yes.
    Ms. Lemos. Absolutely, yes.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Ms. Skipwith. Yes.
    Ms. Lemos. Yes.
    Senator Barrasso. Do you know of any matters which you may 
or may not have already disclosed that might place you in any 
conflict of interest if you are confirmed?
    Ms. Lemos. No.
    Ms. Skipwith. No, I do not.
    Senator Barrasso. OK. So now I am going to begin with a 
round of questions, and then we will go back and forth between 
different members of the Committee.
    Let me start with Ms. Skipwith, if I could start with you. 
This Committee has led the enactment of something called the 
WILD Act, which stands for Wildlife Innovation and Longevity 
Driver Act. The WILD Act established the Theodore Roosevelt 
Genius Prize. These are prizes, it is a series of cash prizes 
to be awarded each year for technological innovation in 
wildlife conservation and in the management of invasive 
species.
    I believe that technology and technological innovation can 
solve some of our most challenging wildlife problems. That 
seems to be the reason that you went on to get that master's 
degree in the first place.
    Ms. Skipwith. Exactly.
    Senator Barrasso. So whether it is addressing the threat of 
invasive species, combating wildlife trafficking. So if 
confirmed as Director of U.S. Fish and Wildlife, will you 
commit to prioritizing implementation of the Theodore Roosevelt 
Genius Prizes in order to stimulate technological innovation in 
both wildlife conservation and in invasive species management?

[[Page 63]]

    Ms. Skipwith. Senator, if confirmed, I look forward to 
working with you and your office to prioritize the 
implementation. What I will also add to that is, I commend the 
Committee for the passage of the WILD Act and the 
implementation is a priority at the Department. Already, 
Secretary Bernhardt has issued a secretarial order in order to 
facilitate a timely implementation.
    Senator Barrasso. Good.
    Dr. Lemos, this Committee strongly supports the mission of 
the Chemical Safety Board. Would you share with us your 
commitment to this agency and its values? Additionally, would 
you commit to fulfilling the 5 year term, if confirmed?
    Ms. Lemos. Thank you, Senator. Yes, I am fully committed to 
the mission of the Chemical Safety Board, as in promoting and 
driving chemical safety change. The reason that I am interested 
and that I am here today is because I know that I can make a 
difference, and I am committed to making that difference and 
providing the stable and consistent leadership that is 
requested of me and needed by this agency.
    If confirmed, I intend to serve the entire, full, 5 year 
commitment.
    Senator Barrasso. Thank you.
    Ms. Skipwith, Wyoming is no stranger to the challenges that 
States face when courts intervene in conservation decisions. 
Despite Fish and Wildlife Service's best efforts, both this 
Administration and the Obama administration, and the Bush 
administration, it took years to de-list the gray wolf in 
Wyoming and to return it to State management following a full 
recovery of the species. As you know, the courts have now 
forced the grizzly bear to be relisted in spite of the efforts 
of Fish and Wildlife.
    In your opinion, does it hurt State and local recovery 
efforts if courts prevent or delay the de-listing of species 
that Fish and Wildlife clearly says are recovered?
    Ms. Skipwith. Senator, thank you very much for that 
question. The science shows that the grizzly bear and the gray 
wolves are biologically recovered. To reach that status, it 
employs working with States, working with private landowners 
and other organizations to reach that goal. That is truly a 
success of the Endangered Species Act.
    Knowing that those species are still on the list, that ends 
up directing resources to work on that instead of focusing on 
imperiled species that really need recovery efforts.
    Senator Barrasso. So when the courts intervene, to overdo 
what you have done, what the agency has done, that is 
detrimental to recovery of other species as well as to the 
States where those species are?
    Ms. Skipwith. Yes, Mr. Chairman, it does.
    Senator Barrasso. Dr. Lemos, the Chemical Safety Board is 
an independent Federal agency charged with investigating 
industrial chemical accidents. Please explain how your past 
work at the National Transportation Safety Board, the Federal 
Aviation Administration--you talked about your license at age 
14, and the journal that you were reading to look into those 
sorts of things that had to do with aviation, but how is your 
past work there as well as

[[Page 64]]

your past work in academia and the private sector going to help 
you succeed as Chair here, if confirmed?
    Ms. Lemos. Thank you, Senator. Three things. First and 
foremost, I have the leadership skills to move this agency 
forward. If confirmed, this will be essential to my success as 
Chair. Over the years, I have demonstrated success as a leader 
in managing people, large programs, initiatives; but especially 
those that required significant change management, 
restructuring, and bringing together diverse groups of 
stakeholders.
    Equally important, I have the subject matter expertise that 
is employed and used by the Chemical Safety Board, and I say 
safety transcends domains. That specific expertise, again, is 
in accident investigation and reconstruction, and human factors 
engineering, and in safety management and risk assessments.
    For example, at the NTSB, I was--in 2005, you might recall, 
the Southwest Midway accident which overran the runway in 
wintery conditions, led to the fatality, unfortunately, of a 
young child. So I have hands on experience with this type of 
work, and the process is the same.
    Finally, if confirmed, my broader understanding of how the 
safety community works together to be accountable to Congress 
and the American people will help me to succeed as Chair.
    Senator Barrasso. Senator Carper.
    Senator Carper. In my conversations with both of you, and 
your testimony today, Ms. Skipwith, you have mentioned that you 
feel you should be guided by science. I think it is fair to say 
that both of you feel that way.
    My first question, I am going to ask a lot of yes or no 
questions. I am going to start off with a yes or no question.
    It is the same question for both of you. Do you agree with 
the world's leading scientists, including those within the 
Department of the Interior and the Environmental Protection 
Agency, who have concluded that climate change is real and is 
caused primarily by humans? Do you agree with that?
    I am just looking for a yes or no, and if you can't say yes 
or no, I will be very disappointed.
    Ms. Lemos. Thank you, Senator.
    Senator Carper. And I am not looking for a ``thank you, 
Senator.'' I am looking for a yes or no. And it is a simple 
question. Do you agree that climate change is real and is 
caused primarily, not entirely, but primarily by humans? Just 
yes or no.
    Ms. Lemos. I can tell you yes to the first part.
    Senator Carper. That is it, thank you.
    Ms. Skipwith, your turn.
    Ms. Skipwith. Yes, I believe in climate change, and humans 
have an impact.
    Senator Carper. Thank you.
    Ms. Skipwith, let's talk about the letter that I sent to 
you 2 weeks ago. One of our jobs--as I said earlier, we are an 
oversight committee. We do oversight over, among others, the 
Environmental Protection Agency, Fish and Wildlife Service. For 
us to do our jobs, occasionally we are going to be making 
inquiries. Sometimes we do it in hearings. Sometimes we do it 
in phone calls, sometimes we do it in letters. It is important 
for us to receive timely responses.

[[Page 65]]

    I have a letter that I sent to the previous Secretary of 
the Department of the Interior like a year ago; I never got a 
response. I think that is just unconscionable. I would never do 
that if I were in a position like that.
    Talk to us, and I am going to ask for the record, ask 
unanimous consent, Mr. Chairman, to submit for the record the 
letter I sent to you 2 weeks ago, and what I deem to be an 
incomplete response. We had talked about this yesterday.
    Would you just say a few words, and then we will move on to 
the next question?
    Ms. Skipwith. Yes, Senator, thank you very much for your 
time yesterday. I appreciate the candid conversation that we 
had.
    I did provide a response in light of that conversation, and 
look forward to providing that remainder.
    Senator Carper. I don't mean to be rude, but can you just 
commit to me today that I will have a full and complete 
response within a week from today? Is that reasonable?
    Ms. Skipwith. I will have to work with the Department of 
the Interior to do a deeper dive.
    Senator Carper. On what I am looking for, can you commit to 
respond within a week? You have had 2 weeks already.
    Ms. Skipwith. So I did respond to those, to the questions.
    Senator Carper. I think those who are going to look at the 
record are going to say that was not a complete response.
    Ms. Skipwith. And I will, I am working with the Department 
to provide the remainder, knowing that how much time that 
letter was, it will take a deeper dive to work with the 
Department to provide an appropriate response.
    Senator Carper. Let me just impart, if I could, a sense of 
urgency. I don't ask of people, I don't send an inquiry and ask 
for a response in 2 or 3 days. I don't do that. I will give you 
a couple of weeks, and I will ask you to do your best to, 
within a week from today, to give me a complete response.
    Thank you.
    Senator Barrasso. Without objection, your letter will be 
made part of the record.
    [The referenced information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[[Page 70]]

    Senator Carper. Thanks so much, Mr. Chairman.
    Dr. Lemos, President Trump has repeatedly tried to 
eliminate the Chemical Safety and Hazard Investigation Board. 
Can you commit to supporting and defending both the board's 
mission and at the least, its current budget?
    Ms. Lemos. Thank you, Senator. Yes.
    Senator Carper. I was going to ask some questions about the 
Migratory Bird Act, but I think one of our colleagues from 
Maryland is going to do that.
    Ms. Skipwith, if I could, the Department of Interior does 
not always give the Fish and Wildlife Service a seat at the 
table in discussions about how the Department should manage 
Federal lands, even when those management decisions impact 
habitat for imperiled species. For example, Politico ran a 
story, I think it was in July, 2 months ago, it was entitled 
``How Science Got Trampled in the Rush to Drill in the 
Arctic.'' The article describes in detail how fish and wildlife 
experts have recently been excluded from decisionmaking with 
respect to oil and gas leasing in the Arctic National Wildlife 
Refuge.
    I would ask unanimous consent, if I could, Mr. Chairman, 
that that article be submitted for the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Carper. Thank you.
    Ms. Skipwith, you were working at the Department when this 
occurred. I would just ask, why didn't you ensure that the Fish 
and Wildlife Service experts were part of the process? I would 
just ask that you commit to us today to ensuring that in the 
future, the Service is included in important Department of 
Interior conversations about leasing and energy development in 
ecologically sensitive areas that are home to imperiled 
species.
    Ms. Skipwith. Senator, I am a biologist, and I am a 
scientist. I believe in following the law. And that requires 
that the best available science, along with the law, is used in 
making decisions. So I will work with you and your office on 
ensuring that the professionals are used in decisionmaking 
processes.
    Senator Carper. Good. Thank you.
    Let me ask you a question. Well, I am about out of time. 
Real quickly.
    No, I am not going to ask the next question. I want to make 
sure I have time for my colleagues to ask their questions. So I 
will stop right there. We will have some more questions for the 
record.
    Thank you.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank both of our nominees for their willingness to 
serve, and we thank their families, because this is a family 
effort. So we thank you for your willingness.
    Ms. Skipwith, I want to start with you. The U.S. Fish and 
Wildlife is critically important to the State of Maryland and 
our region, Delaware, the Chesapeake Bay. Sixty percent of the 
members of the panel right now are in the Chesapeake Bay 
region. The Chesapeake Bay office in Annapolis, for the U.S. 
Fish and Wildlife is a

[[Page 71]]

critical part of the compact reached between six States and the 
District of Columbia.
    Are you familiar with the Chesapeake Bay program?
    Ms. Skipwith. A little bit, Senator.
    Senator Cardin. I would just urge you to understand the 
important role that the U.S. Fish and Wildlife plays there.
    You already mentioned the issues in regard to the 
Endangered Species Act on science as it relates to the gray 
wolf and the grizzly. The Chairman asked you questions about 
the court decisions, which at times I have disagreed with. The 
court is trying to interpret the laws that Congress has passed. 
And sometimes we don't do what we should be doing here in 
Congress, leaving ambiguity to our courts.
    You said that science dictated your views on that, and I 
appreciate that. That is what I am looking for.
    At times, we have to make tough decisions. We don't always 
base all of our decisions on science, but we must have from the 
U.S. Fish and Wildlife the science information in order to make 
those judgments. At times, there will be political 
considerations.
    Are you prepared to shield yourself from the politics so 
that we get from U.S. Fish and Wildlife the best information 
based solely on the science?
    Ms. Skipwith. Senator, when it comes to making listing 
determinations and looking, it is based on what is the best 
available science, and it is also operating within the law. So 
if confirmed, I will continue that path of using the best 
available science and operating within the law.
    Senator Cardin. And will you commit to us that you will 
always be judged in providing information to this Committee and 
to the Members of Congress on science based upon what the 
science indicates and not based upon political considerations?
    Ms. Skipwith. Senator, thank you very much for that 
question. And it is about looking at the science and still 
making sure that it is within the realm and the 
responsibilities of the Fish and Wildlife Service.
    Senator Cardin. If you are, through the political 
structure, coming from either the White House or above, there 
is a direction that they want to go, but science indicates a 
contrary position, are you prepared to say that you will at 
least advise us as to what science tells is the right decision 
in that regard?
    Ms. Skipwith. Senator, one of the things, and if confirmed, 
would be my responsibility, is to look at the science to make 
my decisions and to make my recommendations based on that.
    Senator Cardin. I am not sure that completely responds to 
my question. I will ask that again for the record, and it would 
be helpful to know that you are prepared to speak out on behalf 
of science, which you have indicated is your passion, 
recognizing that we will make the political decisions and there 
will be political considerations. But we expect U.S. Fish and 
Wildlife to call it the way science indicates. I am not----
    Ms. Skipwith. I can commit to that, Senator, yes.
    Senator Cardin. I appreciate that.
    Ms. Lemos, I want to tell you, the work that you do is 
critically important. We had an episode in Baltimore in 
September of 2017

[[Page 72]]

with a chemical release that required people to shelter in 
place for several hours. My question is basically, you don't 
have any ability to enforce your recommendations. You make 
recommendations, but you can't enforce your recommendations. So 
you can't issue penalties; you can't issue regulations.
    How do you go about making sure that your recommendations 
are carried out?
    Ms. Lemos. Thank you, Senator. I agree, the role of the 
accident investigation board, whether it be in transportation 
or chemicals, is to make sure that you are writing 
recommendations that are relevant, you gain stakeholders' buy 
in, you work with all the different parties. But when it comes 
to ensuring--if you are speaking about regulations, or 
recommendations in general, that is a process you work with 
Congress. The agencies are held accountable, or any of the 
folks that we write recommendations to. We have a system of 
following up on those recommendations, how many are closed, how 
many closed or open are acceptable. So that is the method by 
which we can account for that.
    But when it comes to having an authoritative arm, no, we 
are not the authority. We are not writing the regulations, or 
we are not actually enacting the changes by which people have 
to adhere to.
    Senator Cardin. I want to ask you one more question, if I 
might. In response to Senator Carper, you indicated you believe 
that climate change is real, but you qualified that not human 
behavior is a major factor toward climate change. Do you want 
to explain that? You don't have to say yes or no, but explain 
to me why you believe the emissions of carbon that we have done 
is not accelerating the climate problems.
    Ms. Lemos. Thank you, Senator, for giving me the 
opportunity to explain. I am fully aware that as humans, we 
contribute to the climate change in many ways. The degree to 
which climate science, or climate is changing--I am not a 
climate scientist. I am a social scientist, and I am a strong 
supporter of science. I read more and more every day on this 
topic.
    But in terms of making a conclusive statement about the 
degree to which the human contribution is influencing it, I 
will leave that to the people who are the climate scientists. 
That is my perspective.
    Senator Cardin. I would just point out then, when you look 
at the climate scientists--I will leave it at that. I am a 
little bit confused by that answer, but I respect the fact that 
neither you nor I are climate scientists.
    Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    Just to point out, Wyoming Stock Growers Association has 
written regarding Ms. Skipwith that, ``It is important that the 
next Director of the U.S. Fish and Wildlife Service not only 
possess strong leadership skills, but also the education and 
experience required to enact policies based on scientific 
principles, free from political and bureaucratic interference, 
and Ms. Skipwith meets and surpasses these qualifications.''
    Without objection, that will be submitted for the record.
    [The referenced information follows:]

[[Page 73]]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



[[Page 74]]

    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Ms. Skipwith, you are not a prolific campaign donor, 
political campaign donor.
    Ms. Skipwith. Senator, no, I am not.
    Senator Whitehouse. You were appointed for this position on 
July 17th of this year.
    Ms. Skipwith. Yes, Senator, that is correct.
    Senator Whitehouse. Two days later, on July 19th, you 
reported a $5,600 campaign contribution to Donald Trump for 
President. You had to report all your donations in a 10 year 
period. That is the only one. It occurred 2 days after your 
appointment.
    Can you explain the circumstances of that, and specifically 
any and all contacts or conversations you had with anybody from 
the Trump administration or the Trump campaign related to that 
contribution?
    Senator Barrasso. Could I point out to the Senator, she was 
nominated actually in the previous Senate as well, prior to 
this?
    Senator Whitehouse. I'm sure the record will make that very 
clear. But this statement says her nomination date was July 
17th, and it was.
    Ms. Skipwith. That is correct, Senator. I made a 
contribution to the Administration and support what this 
Administration is doing.
    However, as stated, I was nominated in the prior Congress, 
and I was nominated before that contribution.
    Senator Whitehouse. And to the part of my question that 
asked about any contacts between you and the Administration or 
the Trump campaign regarding contributions.
    Ms. Skipwith. There is no contact except for----
    Senator Whitehouse. Nobody asked, nobody suggested? Nobody 
pointed out that you had not contributed? You just 
spontaneously made that contribution on July 19th?
    Ms. Skipwith. I did.
    Senator Whitehouse. Fair enough.
    Do you understand that the rot runs pretty deep in the 
Trump administration when it comes to environmental and public 
health protections and regulatory agencies, that they are quite 
often handed over to the industries that they ought to be 
regulating? And mind you, EPA has become effectively a captured 
tool of the fossil fuel industry and is no longer doing its job 
to protect the public.
    You have worked many years for Monsanto. Can you give us 
assurances here that as Director, you will be the Director for 
the people of the United States and all of their interests, and 
not the Director for Monsanto or for other polluting or 
extracting interests?
    Ms. Skipwith. So, Senator, I have been at the Department 
for over 2 and a half years. When I first came on board, I 
worked very closely with our ethics office, and to this day, I 
still work closely with the ethics office to ensure that there 
are no conflicts of interest. And in my role today, I am 
working for the American people. And if confirmed as Director, 
I will continue to work for the American people.
    Senator Whitehouse. In that case, I wish you well.
    Senator Barrasso. Senator Sullivan.

[[Page 75]]

    Senator Sullivan. Thank you, Mr. Chairman, and Ms. 
Skipwith, thank you, and our other nominee, for your desire to 
serve your country. It is not always easy. I appreciate your 
willingness to do that, and appreciate your families' 
willingness and support to be here. These are always--these are 
positions that sometimes can be challenging, and we need good 
people.
    So I want to thank both of you, because it is not easy. 
Even going through this Senate confirmation, my good friend, 
Senator Whitehouse, as always, has probing questions. I 
appreciate--I think we all appreciate--your direct answers. I 
was going to try to counter some of those, but I don't think 
there is a need.
    So I am going to start with something that actually he and 
I are working on quite a lot, you and I talked about it 
together yesterday in a meeting in my office, this issue of 
oceans and cleaning up our oceans. Senator Whitehouse and I 
have legislation that passed last year, the President was very 
supportive, called the Save Our Seas Act. That is all about 
ocean debris. And now we have legislation called the Save Our 
Seas Act 2.0 that the Trump administration has been supportive 
of.
    So to the extent you can, I would like to get your 
commitment, again, you're not fully having jurisdiction over 
the oceans, but you do have some. And to the extent you can, 
can you commit to work with this Committee, with me, with the 
Chairman, with Senator Whitehouse, on this important issue of 
not just our legislation, Save Our Seas 2.0, but working to 
clean up and maintain healthy oceans for America and the world?
    Ms. Skipwith. Senator, it was a pleasure to meet with you 
yesterday and to discuss this very important topic. I commend 
you and Senator Whitehouse for introducing that, and look 
forward to working with the both of you and the rest of this 
Committee to move it forward.
    Senator Sullivan. Great. I believe we are going to have a 
markup on that legislation here, Mr. Chairman, in a couple of 
weeks. We look forward to moving it forward to get it in front 
of the Trump administration.
    Senator Whitehouse. I hope we have a date.
    Senator Sullivan. I think we have a date from the Ranking 
and Chairman, so thank you, gentlemen.
    Good. We look forward to working with you on that.
    I want to talk a little bit about my State, which 
unfortunately some of my colleagues like to talk about my State 
as well. I always encourage them to stay focused on their 
States. They have a lot to do with their own States. My State 
is the great State of Alaska, which always seems to get a lot 
of attention in this Committee.
    And it should, because it is a great State. But we are a 
unique State. The U.S. Supreme Court just came out with a very 
big opinion about 4 or 5 months ago called Sturgeon v. Frost. 
It was an interpretation of the Alaska National Interest Lands 
Conservation Act, what we refer to in Alaska as ANILCA, a 9 to 
0 opinion written by Justice Kagan. Huge for my State, that 
essentially says--not essentially, it did say--Alaska is 
unique, Alaska is different, and the Congress has stated that 
many times in ANILCA, and in other Federal statutes.

[[Page 76]]

    This is important, because we have a different striking of 
the balance between conservation and environmental issues and 
the need to actually develop our economy, which unfortunately, 
a lot of people in this building don't remember, that is 
something that is important in Alaska.
    Can you commit to me and working with me and this Committee 
to looking at ways in which, given the Sturgeon v. Frost, a 9 
to 0 Justice Kagan opinion looking at new regulations to reset 
the way in which Federal agencies like the Fish and Wildlife 
Service look at Alaska lands under ANILCA, with a new 
regulatory package or another way in which to implement that 
very, very important Supreme Court case, which essentially said 
Federal agencies, Democrat and Republican Federal agencies, 
have been treating Alaska wrongly under the law, and Alaska is 
unique under ANILCA, and there needs to be a reset.
    This is Justice Kagan saying this. Can you commit to work 
with me on this issue, Ms. Skipwith?
    Ms. Skipwith. Senator, I am familiar with that case, and I 
commit to working with you and your office to figure out a path 
forward and looking at what regulations to align with what the 
court cases says.
    Senator Sullivan. Great. Thank you very much.
    Let me ask one final question. It is again a bit of a 
unique Alaska issue, particularly in southeast Alaska. We have 
a growing problem with the sea otter population, which has 
essentially exploded. And in many ways, harms the interests of 
the communities in southeast Alaska, particularly our 
fishermen. This is a problem that has been in the works for 
years.
    We need to coordinate Federal agencies, State agencies, key 
stakeholders in Alaska, on a way in which to address this 
growing problem. Can I get your commitment to work with me and 
the Federal agencies to get to Alaska soon, but also to work 
with us on convening other Federal agencies to help us with 
this growing problem that is negatively impacting many, many 
different stakeholder groups in Alaska?
    Ms. Skipwith. Senator, I commit to that. I have heard from 
you as well as from others about the impacts of the 
overpopulation of the sea otters, and I look forward to working 
with you on that, if confirmed.
    Senator Sullivan. Thank you.
    I again want to thank both of you. I look forward to 
strongly supporting both of your nominations in this Committee 
and on the floor of the Senate.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Sullivan.
    Before turning to Senator Van Hollen, we are in the middle 
of a vote, and Senator Carper has gone. I have gone; Senator 
Cramer will be acting in the Chair capacity until we return.
    Senator Van Hollen.
    Senator Van Hollen. Thank you.
    Thank you, Mr. Chairman, and thank both of you for your 
testimony.

[[Page 77]]

    Ms. Lemos, I hadn't planned to ask you about this, but I 
think your answers require it. Neither you nor I are medical 
doctors, right?
    Ms. Lemos. Correct.
    Senator Van Hollen. But we would both agree that it has 
been established that smoking cigarettes increases the chance 
of lung cancer, right?
    Ms. Lemos. Yes.
    Senator Van Hollen. And your testimony is that you would 
support the views of the scientific community with respect to 
conclusions on climate change, right?
    Ms. Lemos. Yes.
    Senator Van Hollen. And isn't it the case that the 
overwhelming majority of scientists believe that human activity 
is the primary cause of climate change?
    Ms. Lemos. The majority of that which I have read, yes.
    Senator Van Hollen. OK. And I hope you will clarify this 
for the record, because there is a great concern right now that 
individuals like you, whose primary job is going to be to get 
to the bottom of facts and apply the science, are going to fear 
the politics when we want people focused on the science. So I 
hope you will clarify all of that in your written responses.
    So, Ms. Skipwith, thank you for your interest in serving. 
As Senator Cardin mentioned, we have a great interest in 
Maryland and in the other Bay States in protecting the 
Chesapeake Bay. The Fish and Wildlife Service is a big part of 
that.
    We have two wildlife refuges in Maryland, Blackwater and 
Elk Neck. We are going to be looking forward to working with 
you. We have a bipartisan legislative proposal with Senator 
Shelley Moore Capito, Senator Cardin, and myself, to authorize 
more Fish and Wildlife grants to help protect the Bay. And I 
just look for your commitment, if you get through the 
nomination process, to work with us on that.
    Ms. Skipwith. Yes, you have my commitment.
    I also want to say, thank you very much. Last year, there 
was the National Urban Wildlife Refuge Day. You sent over a 
citation with Katherine Provost.
    Senator Van Hollen. Yes.
    Ms. Skipwith. It was absolutely wonderful to get that 
recognition. That is something that we are doing across the 
country, is really recognizing that engaging with those 
audiences that are those nontraditional audiences, that is the 
way to ensure that that conservation stewardship lasts beyond 
just this generation.
    So your support really means a lot. We look forward to 
doing that again this year.
    Senator Van Hollen. Thank you. I was pleased, I got good 
feedback after that meeting.
    So let me ask you about the Migratory Bird Treaty Act. 
Because as you indicated in your testimony, one of your 
missions is to protect the flyways and migratory birds. You 
agree that the Migratory Bird Treaty Act is an important part 
of that strategy, right?
    Ms. Skipwith. I do believe, yes.
    Senator Van Hollen. OK. So when we had the Deepwater 
Horizon oil spill, the damages under that Act required BP and 
others

[[Page 78]]

to pay $100 million in damages because of the mass killing of 
migratory birds that was caused by that oil spill.
    But the Department of Interior has since changed their 
legal interpretation of the damages provisions. When I asked 
Secretary Zinke about this, when he was still the Secretary, he 
denied that the Department of Interior's reinterpretation of 
the damage provisions of the MBTA meant that oil companies 
would no longer be liable for damages for mass killings of 
birds from oil spills.
    That is not correct, is it? In other words, the 
reinterpretation does mean that oil companies will no longer be 
liable for the mass killing of migratory birds through oil 
spills. Isn't that a fact?
    Ms. Skipwith. So, Senator, with the Solicitor's opinion 
that came out for the MBTA, it deals with the incidental take 
of migratory birds. So there are other laws.
    Senator Van Hollen. No, I'm asking you, we just want to get 
the facts. I am talking about this treaty, right? Under this 
treaty, isn't it a fact that the Department of Interior's 
reinterpretation means that we will no longer be able to 
collect damages against oil companies for the mass killing of 
migratory birds caused by oil spills? Yes or no.
    Ms. Skipwith. It is about the intentional versus incidental 
take of migratory birds.
    Senator Van Hollen. So, intentional, right? So what you are 
saying is that unless BP intentionally created an oil spill 
with the purpose of killing migratory birds, then we wouldn't 
be able to collect damages? Right?
    Ms. Skipwith. Then there would be, there would be recourse.
    Senator Van Hollen. So the question is, why. Do you support 
this reinterpretation, or do you want to work with us to modify 
it? Because it seems a ridiculous result, that you have got an 
important damage provision of that Act, you, meaning the 
Department of Interior.
    Ms. Skipwith. So, Senator, when looking at that 
characterization that you just gave, the Department went back, 
looked at what is the intent of the law, what is the history of 
the law, and then looking at what are the different case laws 
that came out of it. And there is a lot of ambiguity in that.
    So when looking at what is the opinion that was written for 
the Department to follow, if confirmed, it would be following 
that Solicitor's opinion, in which we know that there are other 
laws, such as the Endangered Species Act, there is also the 
Bald and Golden Protection Act for others ways for----
    Senator Van Hollen. Right, but you might have a mass 
killing of birds that are not necessarily an endangered 
species, then you're not going to be able to collect damages 
under the Endangered Species Act, right? So that is why this 
was an important tool.
    Anyway, I will follow up. At least you answered the 
question in a straightforward manner, which is that what the 
Department of Interior did has made it impossible to collect 
damages in the kind of scenario we saw under the Deepwater 
Horizon oil spill. I think that that is a huge mistake.
    Thank you, Mr. Chairman.
    Senator Cramer [presiding]. Senator Gillibrand, you are 
welcome to 5 minutes.

[[Page 79]]

    Senator Gillibrand. Ms. Skipwith, the U.S. Fish and 
Wildlife Service is one of the National Resource Trustees for 
the Hudson River. As you may be aware, the EPA recently 
finalized the certificate of completion for General Electric's 
dredging of PCBs from the Hudson River.
    The Fish and Wildlife Service has been on record raising 
concerns about the continued ecological threat posed by PCBs 
remaining in the river, and has called for additional 
remediation to remove more of the remaining PCBs from the 
Hudson. This is a view shared by the State of New York, and 
there are real, legitimate concerns that GE's dredging thus far 
has failed to accomplish the goal of protecting public health 
and the environment.
    Do you support the EPA's decision to issue a certificate of 
completion for the Hudson River dredging?
    Ms. Skipwith. So, Senator, thank you very much for that 
question. That was a decision that was made by EPA. The Fish 
and Wildlife Service does serve as an advisor on that 
committee. So knowing that their role as a trustee would then 
be to work on the remediation to figure out, to return the 
vegetation, returning the natural, to much of the natural state 
as possible. And so we would look forward to continuing to work 
with EPA and also with the citizens and organizations within 
New York.
    Senator Gillibrand. Were you consulted by the EPA before 
they made the decision?
    Ms. Skipwith. So, I was in meetings involving EPA on this 
matter.
    Senator Gillibrand. And do you think, as the new Director, 
you will have the capacity to influence further decisionmaking?
    Ms. Skipwith. Senator, I believe that if Director, I would 
look at the science, and I would provide my recommendation as 
an advisor to EPA.
    Senator Gillibrand. And do you have, at this moment, any 
ideas about what recommendations or what you could do to 
actually focus on the ongoing ecological impacts of PCBs that 
are remaining in the river?
    Ms. Skipwith. Senator, I would have to get briefed on the 
status of where things are at in order to appropriately address 
that question.
    Senator Gillibrand. Once you get your sea legs and you have 
had the opportunity to review the issues, will you write a 
letter to my office about ways that you intend to pursue making 
sure that there's ecological stability in the Hudson River?
    Ms. Skipwith. Senator, I commit to doing that.
    Senator Gillibrand. Thank you. Lyme disease, as the 
Department of Health and Human Services Tick-Borne Disease 
Working Group reported last year, tick-borne diseases are a 
serious public health threat. Lyme disease infects nearly half 
a million Americans each year, and the range of the ticks that 
carry the bacteria that cause Lyme has been expanding.
    Humans and pets can acquire Lyme anywhere they come into 
contact with deer ticks, working, enjoying the yard, camping, 
hiking, hunting, or otherwise being outdoors. Nationally, the 
cases involving Lyme disease and tick-borne illnesses have led 
to an estimated $1.3 billion in direct medical costs each year.

[[Page 80]]

    If confirmed, will you prioritize any effort that the Fish 
and Wildlife Services can take to coordinate with local 
communities and other agencies to address Lyme disease in deer 
and other wildlife populations?
    Ms. Skipwith. Senator, I am not very familiar with this 
topic, so would look forward, if confirmed, to get up to speed. 
And then working with other Federal agencies and other State 
agencies to work on this issue.
    Senator Gillibrand. Thank you. Last--well, not last, next. 
Pesticides. The preponderance of scientific evidence clearly 
demonstrates that neonic pesticides have negative impacts on 
non-target species, including bees and birds. I was therefore 
disappointed by the Fish and Wildlife Service's decision in 
August 2018, to reverse an Obama era ban on the use of neonics 
and genetically modified organisms in the National Wildlife 
Refuge System.
    Our refuges are established for the primary purpose of 
protecting wildlife. So this decision appears to benefit agro-
chemical companies over the species that you have a 
responsibility to protect. Given your decade of prior work 
experience at Monsanto, I am concerned about reports that you 
were actively involved in making this decision.
    Will you please explain what role you played in this 
reversal and why you did not recuse yourself to prevent a 
conflict of interest as required by ethical guidelines you 
signed regarding conflicts of interest with former employers?
    Ms. Skipwith. Senator, I was not involved in the 
decisionmaking for this process. And also, I have worked 
closely with our ethics department to ensure that there are no 
conflicts of interest in any matters that I am involved in.
    Senator Gillibrand. Will you commit to working with 
Congress to make sure that we can work on getting neonic 
pesticides out of the refuges that you are asked to protect?
    Ms. Skipwith. So, Senator, pesticides is one and so are 
GMOs, are a way for the Service, in order to meet its wildlife 
forged goals. So it actually provides an advantage for our 
wildlife. And knowing that that is just one of the tools in the 
tool box in order for the Fish and Wildlife Service to meet its 
goals would have that as a recommendation for the Fish and 
Wildlife Service, and right now, as it stands, it is a case by 
case basis for a refuge manager to decide if it is compatible 
to use GMOs or pesticides in that refuge.
    Senator Gillibrand. OK.
    Thank you, Mr. Chairman.
    Senator Cramer. Thank you, Senator Gillibrand.
    I guess I will recognize myself now for 5 minutes.
    First of all, thank you both for your willingness to serve 
and for being here. Thank you for your willingness to sit 
through this.
    We are, as Chairman Barrasso said, in the middle of a vote 
series, so people will come and go. And I'm going to do my best 
to fill the time in the meantime.
    Ms. Skipwith, first of all, thank you for coming by my 
office yesterday. When Secretary Bernhardt was going through 
this process, and of course Deputy Secretary Wallace as well, 
or Assistant Secretary Wallace as well, they came by. I think 
in the case of Sec

[[Page 81]]

retary Bernhardt, he had to come by twice, as a matter of fact, 
to talk about North Dakota specific issues.
    I just want to home in on one in particular that we 
covered, which is, of course, Fish and Wildlife Service 
waterfall production areas, which in the State of North 
Dakota--North Dakota is in that flyway. We are a prairie 
pothole region. As I often like to say, South Dakota is a sod 
buster State; we are a swamp buster State. We have a lot of 
water, a lot of wetlands that have been stewarded very well by 
the landowners long before there were laws and incentives 
attached to it.
    The waterfall production areas created a concern at home, a 
very serious concern. Not the WPAs themselves, but rather, the 
enforcement of them in recent years, and maybe even the last 
couple of decades, because it has become what was once a 
cooperative, collaborative, community conservation program, it 
has become a contentious one, mostly over what I call pretty 
heavy handed enforcement, a sense of government superiority 
over the private landowner. And I have heard it not from a few, 
not from several, not even from dozens, but hundreds of 
landowners that have expressed concerns about the enforcement 
of that important program. The status quo is just not 
acceptable.
    When Secretary Bernhardt and I met, we covered basically 
three issues, three action items. I want to restate them for 
you. One would be a request to review and update the guidance, 
specifically guidance to provide greater clarity and 
consistency in the enforcement of these rules. I think the lack 
of consistency is one of the problems. I think the 
aggressiveness of it is probably another one, but at least 
provide some consistency.
    Then to establish an effective appeals process for 
landowners if they disagree with the determinations by the 
Service. One of the things we have seen many times is that if a 
landowner disagrees with a determination, and their only appeal 
process is right back to the same people that disappointed them 
the first time, the second time, the third time until they are 
out of money, and we really feel like we need to establish a 
more effective appeals process.
    Then third, to finish updated modern easement maps. I don't 
know if you have ever looked at them, but some of the maps I 
have looked at to first determine the easements are a circle in 
the middle of a section of land, and today the section of land 
is a wetland. And there is no real evidence, historical 
evidence, to support oftentimes the Service's position.
    So, now, I noticed--by the way, you missed an opportunity 
to answer the easiest question I have heard since I have been 
here when Senator Sullivan asked if you would commit to coming 
to Alaska. Now, I would have said yes, right away, I will be 
right there, can we go this weekend? But anyway, I would love 
to have your commitment that you would come to North Dakota, 
meet with my farmers, my landowners, as well as the other 
conservation community, and work on this stuff and iron it out 
to greater satisfaction than so far.
    Ms. Skipwith. Senator----
    Senator Carper. Could I just make a quick point?
    [Laughter.]

[[Page 82]]

    Senator Carper. There is a tradition, and sort of a 
protocol that folks are visiting when confirmed, they come by 
the order in which the State entered the Union and when they 
ratified the Constitution. I wanted to mention that.
    [Laughter.]
    Senator Cramer. Senator Sullivan prefers alphabetically.
    [Laughter.]
    Senator Cramer. But as for me, we are in the middle. We 
appreciate that. And your commitment to work really hard on 
these issues, because it really is contentious, and I want 
cooperation, because I think conservation works better when 
everybody is working together. Is that fair?
    Ms. Skipwith. Yes, that is very fair. And thank you very 
much for your time and very candid conversation. I know the 
Fish and Wildlife Service is working very hard on the maps, and 
looking into an appropriate appeals process to make sure that 
there is due process.
    I commit to coming out to North Dakota to look at this.
    Senator Cramer. And on to Alaska.
    [Laughter.]
    Ms. Skipwith. And Alaska. Because one of the things I have 
learned, too, as being in my current role, and which something 
that is a priority for me, if confirmed, is understanding what 
is going on in the field and on the ground. It makes a 
difference when talking to a lot of the stakeholders.
    And one of the things is that 60 percent of the land here 
in the U.S. is privately owned. In order for the U.S. Fish and 
Wildlife Service to meet its mission, it is about collaboration 
with private landowners, with States, with State agencies, and 
other Federal agencies as well. So that is a huge priority for 
me.
    Senator Cramer. Thank you.
    Thank you both, and I have adequately fulfilled my time, 
and the leadership has returned. So I will go and vote second.
    Ms. Skipwith. Thank you.
    Senator Barrasso [presiding]. Thanks, Senator Cramer. We 
appreciate your role in chairing the Committee in our absence.
    Senator Carper has returned.
    I know you had a couple of additional questions that you 
would like to ask before we adjourn to go back for the second 
vote.
    Senator Carper. Thank you, Mr. Chairman.
    I would ask if I could, Mr. Chairman, for unanimous consent 
to enter into the record a letter from wildlife protection 
organizations who are not supporting Ms. Skipwith's nomination, 
as well as a letter from former Department of Interior career 
staff.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[[Page 93]]

    Senator Carper. How does your faith guide you as you would 
approach serving in this capacity?
    Ms. Skipwith. My faith? My faith has guided me from an 
early age, and that was instilled in me from----
    Senator Carper. With respect to this job.
    Ms. Skipwith. With this job?
    Senator Carper. Fish and Wildlife Service. How would it 
guide you?
    Ms. Skipwith. My conscience?
    Senator Carper. Your faith.
    Ms. Skipwith. My faith. It is about knowing that the 
decisions that I make, that's how I base them on including my 
background and education and science and on law. So I ask every 
day for God's guidance, because it is a huge role. There is a 
lot that goes into it. And it is working with the great people 
of the Service to ensure that that mission is complete, and 
that includes having faith to get that done.
    Senator Carper. Sometimes we talk on our Committee about 
this amazing planet that God has given us, and that we have a 
moral responsibility to protect the people and the plants and 
the animals that are here. Few agencies in the Federal 
Government really have touched that responsibility and hold 
that responsibility more than the Fish and Wildlife Service.
    I would just say to you as a person of faith talking to a 
person of faith that you will be guided by that as well.
    Ms. Skipwith. Yes, sir.
    Senator Carper. Our country--again, for you, Ms. Skipwith, 
if I could--our country's modern conservation movement stands 
on the shoulders of many influential scientists who have over 
the past, I guess, 150 years, shaped America's most important 
conservation laws, agencies, and principles. Would you take a 
second and tell us which conservation focused scientist has 
been most influential in your career, and how has their work 
influenced your approach to fisheries and wildlife management?
    Ms. Skipwith. So, thank you very much for that.
    Senator Carper. You are welcome.
    [Laughter.]
    Ms. Skipwith. I will say, one of the things is, looking at 
President Teddy Roosevelt, and it really goes to the essence 
of----
    Senator Carper. I served with him.
    [Laughter.]
    Senator Barrasso. I thought it was Franklin Delano 
Roosevelt that you served with.
    [Laughter.]
    Senator Carper. I get confused.
    Ms. Skipwith. And knowing that that is really the basis and 
the essence of the generation, the mission for the Fish and 
Wildlife Service. And it goes back to a lot of what other 
leaders within the conservation community look back to in order 
to guide their steps. So that is what I would say is one of the 
leading people that I would look to.
    Senator Carper. I was asking, my question was scientists. I 
asked you to share with us what conservation focused scientist 
has been most influential in your career, and how has the work 
of that

[[Page 94]]

scientist influenced your approach to fisheries and wildlife, 
fisheries management.
    Ms. Skipwith. So I would say offhand, looking at, I would 
say Rob Frazier, he was a leading scientist, in order to change 
technology that dealt with how do you ensure that there is a 
balance in the environment as well as making sure that there is 
productivity for the people that are on the ground generating 
crops as well. A lot of that, what I have learned in my time in 
the science realm, is the theories can be applied to many 
different industries as well.
    Senator Carper. Thank you.
    Dr. Lemos, after the unprecedented historic flooding during 
Hurricane Harvey, which caused chemical explosions, as you will 
recall, in Texas, at the Arkema facility, the Chemical Safety 
and Hazard Investigation Board issued a report calling the 
industry to better understand and prepare for the safety 
hazards caused by more frequent and severe weather events. Do 
you agree that industry must do more to prepare chemical 
facilities for the risks posed by climate change?
    Ms. Lemos. Thank you, Senator.
    Senator Carper. You are welcome.
    Ms. Lemos. I believe I am familiar with these 
recommendations and the report. I understand the significant 
risk that is posed by changing sea levels, rising sea levels, 
and it has certainly impacted, and I believe it is important, 
and I support that recommendation for all relevant plants to do 
the same, and facilities.
    Senator Carper. Thank you.
    One last quick question. Ms. Skipwith, if confirmed as 
Director of Fish and Wildlife Service, would you commit to 
protecting career staff at Fish and Wildlife Service and 
bolster their expertise instead of suppressing them?
    Ms. Skipwith. Senator, I commit to working--I commit to 
that, yes.
    Senator Carper. Thank you. That is a good answer.
    Thank you.
    Senator Barrasso. Well, thank you, Senator Carper.
    Thank you to both of you.
    Before closing, I want to ask unanimous consent to enter 
into the record several letters of support for the nomination 
of Katherine Lemos to be Member and Chairperson of the Chemical 
Safety and Hazard Investigation Board.
    Senator Carper. I object. Not really.
    [Laughter.]
    [The referenced information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[[Page 99]]

    Senator Barrasso. And over 80 stakeholders who have signed 
letters of support for Ms. Skipwith's nomination to serve as 
Director, U.S. Fish and Wildlife Service. I ask unanimous 
consent to enter these endorsements into the record. And if 
there is an objection, I will read each of the names 
individually, personally, and the letters.
    Senator Carper. In that case, I do not object.
    [The referenced information follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[[Page 139]]

    Senator Barrasso. If there are no more questions for today, 
members may submit, as we have talked about before, follow up 
questions for the record. They will do that by 4 p.m. on 
Friday, September 13th, so 2 days from now.
    And we should ask that you both respond to the questions by 
4 p.m. on Thursday, September the 19th.
    I want to thank and congratulate both of the nominees. 
Thank you for your testimony today.
    With that, this hearing is adjourned.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
